No. ____________
In the

Supreme Court of the United States
SALVADOR VASQUEZ, Petitioner
v.

UNITED STATES OF AMERICA, Respondent
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
Certificate Pursuant to Rule 33

Pursuant to Rule 33.2, I hereby certify that this Petition is less than 40
pages, and therefore complies with the page limit set out in Rule 33. This
brief was prepared in 13-point Century Schoolbook font.
Respectfully submitted,
CUAUHTEMOC ORTEGA
Federal Public Defender
DATED: September 27, 2021

By: /s/ Margaret A. Farrand
MARGARET A. FARRAND*
Deputy Federal Public Defender
Counsel for Petitioner
*Counsel of Record

